                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

    Case Number: A09110083                                                                    Page 1 of 1



            The complainant! referred a case to our office in which the subject's2 NSF proposals3 shared text
            and figures with the NSF proposals4 of the subject's former Ph.D advisor. 5 After contact with
            both the subject and the subject's former advisor, we determined that the advisor had given the
            subject permission to use the text and figures from the advisor's NSF proposals. No plagiarism
            occurred.

            Accordingly, this case is closed.




(




             2


             4




    NSF OIG Fonn 2(1!/02)
